CERTIFICATE OF COMPLIANCE
No. 19-1360
William Cannon, Sr., et al., Petitioners,
v.
Johnnie Lee Savory, Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

As required by Supreme Court Rule 33.1(h), I certify that the Brief Amici
Curiae of the Intergovernmental Risk Management Agency, International
Municipal Lawyers Association, and National Association of Police Organizations in
Support of Petitioners contains 3,372 words, including footnotes but excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d). In making
this certification, I have relied on the word count of the word-processing system
used to prepare this Brief.
Pursuant to 28 U.S.C. ยง 1746, I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 10, 2020.

_
________
Stephen W. Miller
Harris, Wiltshire & Grannis LLP
1919 M Street NW, Fl. 8
Washington, DC 20036
(202) 730-1300
smiller@hwglaw.com
Counsel for Amici Curiae

